Audit Report



Return to the USDOJ/OIG Home Page




Grants Administered by Cangleska, Inc.,
Kyle, South Dakota

GR-60-02-004
 
August 2002

Office of the Inspector General

EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of the Violence Against Women grants awarded by the U.S. Department of Justice (DOJ), Office of Justice Programs (OJP) to Cangleska, Inc. (Cangleska).  The purpose of these grants was to enhance the safety of abused women and children living in rural areas by creating and enhancing collaborative partnerships between criminal justice agencies, victim services providers, and community organizations.  Between August 1998 and April 2002, Cangleska was awarded a total of $1,645,109 to provide services to abused women and children.
We tested Cangleska's accounting records to determine if reimbursement claimed for costs under the grants was allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.
Our audit revealed that Cangleska charged unallowable costs to the grants, did not always have proper documentation to support expenditures, classified expenditures incorrectly, did not maintain required property records, and requested and received reimbursement prior to budget approval by OJP.  Additionally, required reports were not submitted timely.  As a result of the deficiencies identified below, we question $376,877 or 23 percent of the total grant funds received.1   Specifically, we found:

Cangleska obtained reimbursement for unallowable direct costs totaling $94,099.
Documentation was not adequate to support expenditures totaling $21,322.
Expenditures were not classified correctly.
Excess salary costs of $122,624 were charged to the grants.
Cangleska obtained reimbursement for unallowable and unsupported fringe benefit costs totaling $74,612.
Property records were not always maintained, resulting in unallowable costs of $6,887.
A drawdown totaling $57,333 was made prior to approval of the grantee's budget by OJP.
Actual expenditures were not used to determine total outlays on the Financial Status Reports.
Financial Status Reports and Progress Reports were not submitted timely.
Single Audit Reports for fiscal years 1998 through 2001 were not completed.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.